No. 20-1137
IN THE

Supreme Court of the United
States
____________________

CALIFORNIA PARENTS FOR THE EQUALIZATION OF EDUCATIONAL MATERIALS, ET AL.,
Petitioners,
v.
TOM TORLAKSON, IN HIS OFFICIAL CAPACITY AS STATE
SUPERINTENDENT OF PUBLIC INSTRUCTION AND DIRECTION OF EDUCATION FOR THE CALIFORNIA DEPARTMENT OF EDUCATION, ET AL.,
Respondents.
____________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
____________________
MOTION FOR LEAVE TO FILE AND BRIEF OF
SHREE SHAKTI MANDIR OF ATLANTA AND
OTHER HINDU TEMPLES, HINDU ORGANIZATIONS, AND TEACHERS AS AMICUS CURIAE IN
SUPPORT OF PETITIONER
____________________________

ALAN MYGATT-TAUBER
Counsel of Record
LAW OFFICE OF ALAN
MYGATT-TAUBER
10089 Ashley Circle NW
Silverdale, WA 98383
(202) 236-9734

1
alan@amtappeals.com

2
MOTION FOR LEAVE TO FILE BRIEF AS
AMICUS CURIAE IN SUPPORT OF
PETITIONER
----------------------------------------------------------------------As required by Supreme Court Rule 37.2(b),
Shree Shakti Mandir of Atlanta, other Hindu temples, educational organizations, and teachers moves
this Court for leave to file the attached brief as amicus curiae in support of the Petitioners, California
Parents for the Equalization of Educational Materials (CAPEEM), et al. Amici timely notified the parties of its intent to submit an amicus curiae brief in
this case pursuant to Rule 37.2(a). Petitioners and
Respondents the California Department of Education consented to the filing of the brief, but not all
the parties identified as respondents were willing to
grant consent.
Amici are a collection of Hindu temples and Hindu
religious educational organizations from across the
country, serving over half a million Hindu adherents, three Hindu teachers in California, and a
member of a California school board. All amici have
an interest in the proper presentation of the Hindu
faith in California educational materials as well as
insuring that the State of California does not discriminate against Hinduism when selecting its
teaching materials regarding the Hindu faith.
This case presents an ideal opportunity for this
Court to make clear that the Free Exercise Clause
prevents a state from unfairly discriminating
against one religion by singling it out for negative

3
attention in its teaching materials. As detailed below, the lower Court has not only ignored this
Court’s clear teachings regarding the appropriate
test for determining when the Free Exercise Clause
has been violated, but due to the outsized impact
California has on the national textbook market, such
discrimination as occurred here will not remain confined to California, but instead will inevitably spread
nationwide. As amicus curiae, the Hindu temples,
educational associations, and teachers hope to assist
the Court by highlighting the ways in which California’s educational curriculum presents a distorted
view of the Hindu faith as well as the impact that
California’s decisions have on the nationwide textbook market.
Accordingly, amici requests that this Court grant
its motion to file the attached brief as amicus curiae.
Respectfully submitted,
ALAN MYGATT-TAUBER
Counsel of Record
LAW OFFICE OF ALAN
MYGATT-TAUBER
10089 Ashley Circle NW
Silverdale, WA 98383
(202) 236-9734
alan@amtappeals.com
Counsel for Amicus Curiae

March 2021

i
TABLE OF CONTENTS
TABLE OF CONTENTS ........................................... i
TABLE OF AUTHORITIES ………………………… iii
INTEREST OF THE AMICUS CURIAE ................. 1
SUMMARY OF ARGUMENT ................................ 2
REASONS FOR GRANTING THE WRIT ........... 3
I.

The Ninth Circuit’s Decision Conflicts
With This Court’s Free Exercise cases ......... 5
A. The Ninth Circuit failed to address
this Court’s long-standing
requirement that the state must
treat religion neutrally ........................ 5
B. California’s Standards and
Framework violate the Free
Exercise Clause’s neutrality
requirement………. .............................. 7
1. California identifies positive
contributions for all the
religions studied, except
Hinduism ......................................... 7
2. California avoids focus on the
negative aspects of all the
religions studied, except
Hinduism ......................................... 9
C. The Ninth Circuit reads
Masterpiece Cakeshop too narrowly .. 12
D. Respondents subjected Petitioners
to disparate treatment in violation
of Masterpiece Cakeshop .................... 14

ii
TABLE OF CONTENTS
Page
E. Respondents have previously made
hostile statements about Hinduism
and the Petitioners in violation of
Masterpiece Cakeshop ........................ 16
II. The State’s First Amendment Violation
Will Have Far-Reaching Implications ........ 17
CONCLUSION ........................................................ 21
APPENDIX - List of Amici……………………………1a

iii
TABLE OF AUTHORITIES
Page
CASES
CAPEEM v. Noonan, 600 F. Supp. 2d
1088 (E.D. Cal. 2009) ......................................... 16
Church of Lukumi Babalu Aye v. City of
Hialeah, 508 U.S. 520, 534 (1993)....................... 5
Espinoza v. Montana Dep’t of Revenue,
140 S. Ct. 2246 (2020)...............................5, 12, 17
Gillette v. United States, 401 U.S. 437,
452 (1971) ............................................................. 5
Masterpiece Cakeshop, Ltd. v. Colorado
Civil Rights Comm'n, 138 S. Ct.
1719 (2018) ..........................................2, 12, 13, 14
Trinity Lutheran Church of Columbia,
Inc. v. Comer, 137 S. Ct. 2012, 2019
(2017) ...........................................................5, 6, 12
STATUTES
Calif. Ed. Code § 60119(a)(1)(a) .............................. 18
Calif. Ed. Code § 60200(c)(4)................................... 18
OTHER AUTHORITIES
Julie A. Bianchini & Gregory J. Kelly,
Challenges of Standards-Based
Reform: The Example of California’s
Science Content Standards and
Textbook Adoption Process, SCIENCE
EDUCATION, 378-89 (2003) ................................. 19
Barbara Crane, The ‘California Effect’
on Textbook Adoptions,
EDUCATIONAL LEADERSHIP, 283-285
(January 1975) ................................................... 19
Fingertip Facts on Education in
California, California Department of
Education ........................................................... 18

iv
Beverlee Jobrack, TYRANNY OF THE
TEXTBOOK: AN INSIDER EXPOSES
HOW EDUCATIONAL MATERIALS
UNDERMINE REFORMS (2012) ........................19, 20
More Than 76 Million Students
Enrolled in U.S. Schools, Census
Bureau Reports, United States
Census Bureau ................................................... 18
Marcy Stein, Carol Stuen, Douglas
Carmine, & Roger M. Long,
Textbook Evaluation and Adoption,
17 READING & WRITING QUARTERLY 5
(2001) .............................................................19, 20
Harriet Tyson, Three Portraits: Text
Book Adoption Policy Changes in
North Carolina, Texas, California,
INSTITUTE FOR EDUCATIONAL
LEADERSHIP (July 1990)....................15, 16, 18, 19

1
INTEREST OF THE AMICI CURIAE1
Amici are a collection of over one hundred and fifty Hindu Temples and Hindu religious and spiritual
educational organizations. They include large groups
with multiple temples, some of the largest Hindu organizations in the world which have a global presence including in the United States, a 2500 year old
organization which is the oldest continuously functioning religious institution in the world and which
has its presence in America, a temple that was firebombed, and several other prominent Hindu temples
across the country which, taken together are spread
across forty states and serve a combined 500,000
Hindu adherents across the United States every
year. Additionally, amici consist of Hindu school
teachers in California including those who have
taught and must teach the topics that are part of the
dispute in this lawsuit to students in California’s
public schools, and a member of a California school
board.2
Amici strongly object to an unfairly negative depiction of the Hindu faith in official state curriculum
in primary and secondary education. Additionally,
All the parties were notified of the intention to file this brief
more than 10 days before it was filed. Petitioners and Respondent California Department of Education have granted
their consent. Not all the respondents identified consented to
the filing of the brief. No counsel for any party authored this
brief in whole or in part, and no person or entity other than
amicus or its counsel funded its preparation or submission.
1

2

A full list of amici is contained in Appendix 1.

2
amici educators have an interest in not being asked
to teach beliefs that conflict with their religious beliefs. Finally, amici school board member has an interest in having this question settled, as school
boards are typically on the front lines of lawsuits
arising over the content of curriculum.
SUMMARY OF ARGUMENT
California has singled out Hinduism for derogatory treatment in its teaching materials for sixth and
seventh graders. While teaching about various religions such as Christianity, Judaism, Islam, Buddhism, and Hinduism, California describes the virtues and contributions of all religions, save Hinduism. California also goes out of its way to minimize
the negative aspects of all the religions taught, but
again excepts Hinduism. This choice brings it into
direct conflict with this Court’s cases interpreting
the Free Exercise Clause of the First Amendment,
which requires states to treat religions equally.
Petitioners sought in vain for relief from the federal courts for this unconstitutional discrimination.
Instead, the lower court distinguished and limited
this Court’s most recent cases about the meaning of
the Free Exercise Clause, ignoring the clear teaching
of Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Comm’n, 138 S. Ct. 1719 (2018). In doing so,
the lower court made two errors. First, it failed to
analyze the disparate treatment to which California
subjected Hinduism. Second, it ignored evidence of

3
actual hostility to Hinduism by members of the California Department of Education.
This case is of critical national importance for two
reasons: first, California is home to over eight percent of the nation’s 76.4 million school children.
These 6.1 million children will be taught a derogatory view of Hinduism and will carry it with them into
the world as they grow and move to other states.
Second, this case is vitally important because of the
outsized effect California has on the national textbook market. For nearly half a century, studies have
noted that because of California’s size, it plays a disproportionate role in dictating the content of elementary and secondary school textbooks. Because of the
costs of producing such texts, publishers typically repackage the California edition as a national edition,
with all the same content. Thus, California’s discriminatory treatment of Hinduism has and will continue to spread far beyond its borders, tarnishing the
views of Hinduism of a whole generation of school
children.
REASONS FOR GRANTING THE WRIT
This is a case about religious equality. Hinduism
is a dharmic tradition originating in India and practiced by 1.2 billion people around the globe. In the
Hindu tradition, dharma is the religious and moral
law governing individual conduct. Dharma commands its adherents to be truthful, generous, and to
do no harm. It is the fourth most practiced religion
in the United States behind Christianity, Judaism,

4
and Islam. Many Hindu concepts and practices,
such as karma, reincarnation, meditation, and yoga
have entered cultural consciousness and become a
regular part of American’s daily lives. But California has decided that, as part of its official curriculum, students of all faiths, including Hindus themselves, will be taught that Hinduism has not made
positive contributions to thought or society. While
the State Framework for History-Social Science
mentions some of these concepts, it does so in a single sentence and strips them of their connection to
Hindu beliefs. They are described as having “developed over time,” which further reinforces the idea
that Hinduism was developed by humans, rather
than divinely inspired. Instead of teaching students
the positive aspects of Hinduism, California focuses
heavily on one negative social system—caste—which
is not intrinsic to the Hindu tradition.
In dismissing the challenge to California’s official
policy discriminating against Hinduism, the lower
court has ignored this Court’s holdings about the
meaning of the Free Exercise Clause. Because of
California’s outsized role in the national market for
educational textbooks, the decision has also ensured
that California’s biased views will inevitably spread
to other states and cause the denigration of a religion practiced by nearly 1 in 6 people worldwide.

5
I.

THE NINTH CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S FREE
EXERCISE CASES

One watchword describes the Free Exercise
Clause’s approach to religion: neutrality. Under this
Court’s cases interpreting the Free Exercise Clause,
no state may single out a religion for special disfavor. Yet that is what California does in its teaching
materials and that is what the Ninth Circuit’s precedent allows. Only correction by this Court can remedy this discrimination.
A.

The Ninth Circuit Failed to Address this Court’s long-standing requirement that the state must treat
religion neutrally

A long line of decisions from this Court has instructed that in Free Exercise cases, the key inquiry
is neutrality. See Church of Lukumi Babalu Aye v.
City of Hialeah, 508 U.S. 520, 534 (1993) (“The [Free
Exercise] Clause ‘forbids subtle departures from
neutrality’” (quoting Gillette v. United States, 401
U.S. 437, 452 (1971)). Just last term, Justice Thomas reminded us that “the government must treat all
religions equally….” Espinoza v. Mont. Dep’t of Revenue, 140 S. Ct. 2246 (2020), slip op. at 26 (Thomas,
J., concurring). See also Trinity Lutheran Church of
Columbia, Inc. v. Comer, 137 S. Ct. 2012, 2019
(2017) (“The Free Exercise Clause ‘protect[s] religious observers against unequal treatment….’”
(quoting Lukumi, 508 U.S. at 533)).

6
But the panel below failed to examine California’s
History-Social Science Content Standards for sixth
and seventh grades and the accompanying Framework to determine whether they are neutral in their
discussion of Hinduism. Indeed, the word “neutral”
appears only once in the decision, in describing Petitioner’s claims. Pet. App. 7a.
Rather than subject California’s discrimination
against Hinduism to the exacting standard of the
“strictest scrutiny,” Trinity Lutheran, 147 S. Ct. at
2019, the court below required Petitioners to establish that California’s curricular requirements placed
a “burden on their religious exercise or practice.”
Pet. App. 15a. While this may be a requirement
within the Ninth Circuit, it is not what the First
Amendment demands.
In Trinity Lutheran, this Court struck down a
state program which excluded religious organizations from participating, even though the Court
acknowledged that the greatest likelihood of harm
was “a few extra scraped knees.” 137 S. Ct. at 2025.
Here, on the other hand, the harm is that young
Hindu children will be taught that their religion was
not divine in origin but is instead the result of Aryan
invaders, Pet. App. at 104a; that their exalted books
are merely examples of “Sanskrit literature,” Pet.
App. at 105a; that the most identifiable aspect of
their sacred beliefs is the discriminatory caste system, Pet. App. at 104a; and that deviating from this
prescribed thought will result in a lower grade.

7
B.

California’s Standards and Framework violate the Free Exercise
Clause’s neutrality requirement

One of the most pernicious claims in the Standards and Framework is the claim that Hinduism
originated with the Aryans. This sends a message to
students that Hinduism is a false religion and, by
itself, violates the Free Exercise Clause. Along with
their reliance on discredited theories about the origins of Hinduism, disparaging sacred texts as mere
literature, using the insulting term “Brahmanism”
as a descriptor of Hinduism, and denying the divine
nature of Hindu traditions, the Standards and
Framework single out Hinduism alone for negative
treatment. They both deny any positive impact that
Hinduism has had and exacerbate its negative traits.
1. California identifies positive contributions for
all the religions studied, except Hinduism
The History-Social Science Content Standards for
California Public Schools, Kindergarten Through
Grade Twelve take up ten pages and lay out, in
broad strokes, the lessons that students are expected
to learn. It identifies five religious groups studied in
sixth and seventh grades: Ancient Hebrews, Christians, Muslims, Hindus, and Buddhists.
Standard 6.3 deals with the Ancient Hebrews and
states that students should learn “how the ideas of
the Hebrew traditions are reflected in the moral and
ethical traditions of Western Civilization.” Pet. App.
F, 102a.
Standard 6.5 covers Ancient India. It
states in Standard 6.5(5) that students will learn

8
about the “life and moral teachings of Buddha and
how Buddhism spread in India, Ceylon, and Central
Asia.” Id. at 104a. There is no similar requirement
in the Standards that the students learn about Hinduism’s contributions, other than to describe the
Bhagavad Gita, a holy book, as an example of “Sanskrit literature.” Id. at 105a.
The Framework likewise emphasizes the contributions of other religions. Again, Judaism is called
out for making “an enduring contribution of morality
and ethics to Western Civilization.” ER 1294.3
When discussing the lessons of Christianity, the
Framework directs that through biblical readings,
“students will learn about those teachings of Jesus
that advocate compassion, justice, and love for others.” Id. at 125a. In describing Islam, the Framework states that two core tenets are that people
must “treat one another with equality and justice.”
ER 1335.
By contrast, the Framework spends four pages
discussing the purported origins, history, and key
beliefs of Hinduism. At no point does the Framework highlight positive contributions of Hindu beliefs to modern society, nor the dharmic virtues of
truthfulness, non-injury, and generosity. While it
recognizes that Hinduism is itself a Vedic tradition,
none of the Vedic virtues of suffering, compassion
“ER” citations refer to the Appellants’ Excerpts of Record,
CAPEEM v. Torlakson, No. 19-15607 (9th Cir. Aug. 8, 2019),
ECF No. 11.
3

9
and mindfulness are mentioned until the Framework
switches to its discussion of Buddhism.
Instead, the Framework attributes the Vedic tradition itself to Aryan origins (using the synonym
“Indic speakers” in place of “Aryan”) sending the
message that Hinduism is a social construct. It also
notes another Indian religion—Jainism—and its focus on nonviolence, which “notably” contributed to
the ideas of Mohandas Gandhi. ER 1304-1305.
Thus, even when naming a Hindu who was famous
for espousing non-violence, the Standards and
Framework do not identify Hinduism with positive
traits and do not identify Gandhi as a Hindu. Rather, they credit his ideas and contributions to Jainism.
2. California avoids focus on the negative aspects of all the religions studied, except Hinduism
By contrast, in accordance with the California
Education Code and policy, the Standards and
Framework avoid focusing on negative aspects of all
the religions studied, apart from Hinduism. Of the
four pages devoted to the purported origins and key
beliefs of Hinduism, fully one-quarter focuses on the
role of the caste system in India and explicitly links
it to Hinduism. Pet. App. G, 122a-23a. What makes
this particularly jarring is that the discussion begins
with a recognition that all early societies developed a
system of social classes. The Framework notes that
many Hindus in both the United States and India
reject the caste system but reinforces that this cul-

10
tural and social construct is a religious belief. Id.
Thus, because the Standards and Framework wrongfully attribute caste to Hinduism, children can be led
to believe that a majority of Hindus reject a core tenet of their faith.
In no other instance does the Framework go into
such detail, and in no other cases are social inequalities attributed to religious beliefs. But caste is explicitly tied to Hinduism. In fact, it goes in the opposite direction and notes how other religions broke
down these social barriers.
For example, when discussing the role of women
in Hindu rituals, the Framework states that women
“participated in religious ceremonies and festival
celebrations, though not as equals.” Pet. App. at
124a. In contrast, the Framework recognizes Judaism as a patriarchal society, but “Jewish law offered
women some important rights and protections…They read selected excerpts from the Torah,
the first five books of the Hebrew Bible (Tanakh),
which Christians refer to as the Old Testament.” ER
1294.
In discussing Mesopotamia, the Framework
states that “Mesopotamia was a patriarchy, and men
had more power than women. However, priestesses
and noblewomen did have some access to power.”
ER 1289. In Christianity, the Framework notes
“Until modern times, Christian women had few
property rights and were subordinate to men. Upper-class and influential Romans who converted to
Christianity appear to have been predominantly

11
women, and some of them assumed leadership positions.” Pet. App. at 125a. Thus, even as the Framework notes the patriarchal nature of Christianity
until the modern era, it immediately notes that Roman women assumed leadership positions within the
Church. Not mentioned anywhere in the Framework
is the fact that, to this day, women may not serve as
clergy in the Roman Catholic Church.4
Islam, too, is taught as a means for women to rise
in society. According to the Framework, unlike the
older Arabian view of women as “family property,”
Islam declared that “all women and men are entitled
to respect and moral self-governance….” ER 1336.
The Framework does recognize that Muslim society
was patriarchal, but notes that was true of all agrarian societies of that era. Id.
While acknowledging that all societies of the ancient world were patriarchal, California teaches that
only Hinduism fails to raise women to be the equals
of men.
The closest the Framework comes to acknowledging this reality is when it states that while in a few “radical Protestant
sects” women became leaders, “male clergy, both Catholic and
Protestant, generally agreed that even though men and women
were equal in the sight of God, women should bow to the will of
their fathers and husbands in religious and intellectual matters.” ER 1371. This is yet another example in which the
Framework attributes the negative aspects of a religion other
than Hinduism to human failings, while the religion itself is
described in a positive manner noting that “men and women
were equal in the sight of God.”
4

12

Throughout the Framework, the authors have
carefully worded the text to avoid laying the blame
for any aspect of society or history that could be perceived negatively on religion, other than for Hinduism. Thus, while dealing with topics such as forced
conversion in Islam and the Christian Crusades, the
Framework takes great care to describe them as the
actions of humans rather than as a failing of their
respective religions. Hinduism is the only instance
for which the negative aspects of society and history
have been attributed to the religion itself. The Free
Exercise Clause forbids this lack of neutrality.
C.

The Ninth Circuit reads Masterpiece Cakeshop too narrowly

The lower court reviewed Petitioners’ claims in
light of three recent decisions of this Court: Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Comm’n, 138 S. Ct. 1719 (2018); Trinity Lutheran
Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012
(2017); and Espinoza v. Mont. Dep’t of Revenue, 140
S. Ct. 2246 (2020). Each time, it cabins the holdings
of the cases to their specific facts, but none more
nonsensically than in Masterpiece Cakeshop.
Masterpiece Cakeshop considered a claim by a
baker that the Colorado Civil Rights Commission
expressed hostility toward his religious beliefs when
it upheld a finding that he discriminated against a
gay couple when he refused to make them a custom
wedding cake. Id. at 1723. In making its decision,
this Court relied, in part, on hostile statements

13
made by two members of the Colorado Civil Rights
Commission about the Free Exercise claim. Id. at
1729-30.
Here, the lower court found that because there
were “no expressions of hostility” made by members
of the Curriculum Committee,5 the reasoning of
Masterpiece Cakeshop does not apply. Pet. App. at
17a. But Masterpiece Cakeshop cannot be read so
narrowly. It is simply nonsensical to hold that hostile statements by individual lawmakers are unacceptable, but ignore hostility embodied in official
state policy adopted by those same lawmakers. Such
a rule privileges bad actors who have the good sense
to keep their mouths shut. This Court’s precedents
require a more pragmatic approach.
In fact, the Court went beyond looking at the
mere existence of hostile statements, but also relied
on the disparate treatment suffered by Mr. Phillips,
the owner of Masterpiece Cakeshop, compared to
other bakers who had refused to provide custom
cakes. Masterpiece Cakeshop, 138 S. Ct. at 1730-31.
The Court below did not engage in this second level
of analysis to determine whether other religions

Emails obtained during discovery show that officials involved
in drafting the Framework embraced the negative statements
made to them about the Petitioners and other Hindus, joined
those who made such negative statements, and worked together with them under the banner of the South Asia Faculty
Group.
5

14
were treated differently than Hinduism. Indeed, it
did not even mention it.
D.

Respondents subjected Petitioners
to disparate treatment in violation
of Masterpiece Cakeshop

Because the lower court did not acknowledge
Masterpiece Cakeshop’s alternative rationale of disparate treatment, it did not analyze the treatment of
Petitioners and other groups. Had it done so, it
would have determined that Petitioners were not
treated equally.
There are many examples of the State relying on
disparate processes for determining the content of
the Framework for Hinduism compared to other religions. The first, and most obvious, was the use of
the South Asia Faculty Group. Respondent Adams,
who himself has a history of anti-Hindu bias as detailed below, recruited this group of outside experts
through a private telephone call. No similar group
was consulted in relation to Christianity, Judaism,
Islam, or any other religion covered in grades six and
seven. Emails obtained during discovery revealed
hostile statements against Hindus made by the
South Asia Faculty Group. The emails also revealed
that two co-authors of the Framework were members
of the group. Thus, these hostile statements are directly attributable to the State.
Even assuming it was appropriate to rely on the
work of the South Asia Faculty Group, the State
evinced disparate treatment in the timing of public

15
comments it received and considered. The deadline
for receiving public comments for consideration at
the History-Social Science Subcommittee’s March 24,
2016 meeting was February 29. ER 1020. Even so,
Nancy McTygue, the Executive Director of the California History-Social Science Project6—which was
tasked with drafting the Framework—stated at the
March 24 meeting that she was making edits to the
Framework based on a letter she received just that
morning from the South Asia Faculty Group. Id.7 No
other public comments provided after February 29,
2016 were considered at the March 24 meeting.
This is not the first time Respondents subjected
Petitioners to unequal treatment. In an earlier lawsuit, CAPEEM v. Noonan, 600 F. Supp. 2d 1088
(E.D. Cal. 2009), the District Court found that the
State of California’s Curriculum Committee subjected Petitioners and allied groups to disparate treatment.
Examples found by the District Court in that case
included subjecting Petitioner’s proposed edits to
formatting requirements not imposed on other
groups, subjecting comments by Hindu groups to arbitrary deadlines not required of other groups, and
fully vetting the one Hindu expert who supported
Ms. McTygue was also a member of the Instructional Quality
Commission until the end of 2015.
6

It was the recommendation from the South Asia Faculty
Group in this March 24 letter that led McTygue to recommend
re-linking Hinduism and the caste system. ER 1015.
7

16
Petitioner’s edits while not providing similar vetting
to experts hired to oppose those edits. Id. at 1112.
E.

Respondents have previously made
hostile statements about Hinduism
and the Petitioners in violation of
Masterpiece Cakeshop

Moreover, the lower court’s holding that the record lacked hostile statements by the Respondents
about the Petitioners and their beliefs was simply
incorrect.
Petitioners previously sued the State of California and its employees over the Standards and a predecessor Framework. In 2006, Petitioners filed a
lawsuit claiming that the State’s discussion of Hinduism denied them equal protection by disparaging
Hinduism and alleging that their public comments
faced standards not required for other experts.
CAPEEM v. Noonan, 600 F. Supp. 2d 1088 (E.D. Cal.
2009).
In response to Defendant’s motion for summary
judgment, the district court denied judgment on the
Equal Protection Claim precisely because Petitioners
provided “evidence of certain statements” that “evidence hostility toward the Hindu groups.” Id. at
1113. The court noted that Tom Adams, one of the
Respondents here, referred to comments proffered by
Petitioner’s experts as “a nationalist interpretation
of Indian history” even though the expert was from
the United States and Adams testified he did not
think she was of Indian descent. Id. Additionally,

17
another member of the Curriculum Commission,
Charles Munger, called Petitioner’s proposed edits
“foolish” and the Commission referred to Petitioner’s
proposed edits as “theological tweaking.” Id. Finally, an outside expert hired by the Curriculum Committee, Dr. Michael Witzel, made derogatory statements about the Plaintiffs. Id.
When discrimination infects the history of a state
law or policy it is appropriate to account for it in the
present. Espinoza, 140 S. Ct. at 2267 (Alito, J., concurring) (“Nevertheless, the provision’s origin is relevant….”).
In sum, the State of California, in creating its
2016 History-Social Science Framework for sixth
and seventh grade used a process that treated the
discussion of Hinduism differently than any other
religion under consideration and relied on individuals with a history of anti-Hindu bias. In doing so, it
violated this Court’s holdings in Masterpiece
Cakeshop and should be reversed.
II.

THE STATE’S FIRST AMENDMENT VIOLATION WILL HAVE FAR-REACHING
IMPLICATIONS

California’s discriminatory treatment of Hinduism is of obvious concern to the state’s nearly
800,000 adherents. But it also concerns Hindus
across the United States because of California’s impact on the national textbook market.

18
According to the California Department of Education, there are currently 6,163,001 students in California’s 10,588 public and charter schools.8 According to the Census Bureau, as of 2017, there were
around 76.4 million elementary and secondary
school students in the United States.9 Thus, California educates over 8% of the school-age population.
This large mass of students, with their incorrect and
derogatory view of Hinduism, cannot help but diffuse
it into the wider world as they grow, travel, and
move about the country. And the sheer size of this
student population warps the content of textbooks
used outside the state.
According to California’s Education Code, textbooks that the state adopts must conform with the
Standards and Framework.
Calif. Ed. Code §
60200(c)(4) (all instructional materials must be
“aligned to the content standards adopted by the
state board….”); Id., § 60119(a)(1)(a) (to receive state
funds, a school district’s instructional materials
must be “consistent with the content and cycles of
Fingertip Facts on Education in California, California Department
of
Education,
available
at
https://www.cde.ca.gov/ds/sd/cb/ceffingertipfacts.asp (last accessed 2/12/2021)
8

More Than 76 Million Students Enrolled in U.S. Schools, Census Bureau Reports, United States Census Bureau, available at
https://www.census.gov/newsroom/press-releases/2018/schoolenrollment.html#:~:text=More%20Than%2076%20Million%20Studen
ts%20Enrolled%20in%20U.S.%20Schools
(last
accessed
2/12/2021)
9

19
the curriculum framework adopted by the state
board.”). To win California’s substantial—and lucrative—business, textbook publishers have a powerful
incentive to conform their offerings to California’s
Standards and Framework. Due to the costs of textbook creation and production, it is easier to market
the California editions nationwide than provide various editions.
Educational researchers have noted the “California Effect” on textbook content for nearly 50 years.
See, e.g., Barbara Crane, The ‘California Effect’ on
Textbook Adoptions, EDUCATIONAL LEADERSHIP, 283285 (January 1975); Harriet Tyson, Three Portraits:
Text Book Adoption Policy Changes in North Carolina, Texas, California, INSTITUTE FOR EDUCATIONAL
LEADERSHIP (July 1990); Marcy Stein, Carol Stuen,
Douglas Carmine & Roger M. Long, Textbook Evaluation and Adoption, 17 READING & WRITING QUARTERLY 5 (2001); Julie A. Bianchini & Gregory J.
Kelly, Challenges of Standards-Based Reform: The
Example of California’s Science Content Standards
and Textbook Adoption Process, SCIENCE EDUCATION,
378-89 (2003); Beverlee Jobrack, TYRANNY OF THE
TEXTBOOK: AN INSIDER EXPOSES HOW EDUCATIONAL
MATERIALS UNDERMINE REFORMS (2012).
These authors conclude that, because of its size
and the number of school children, California (along
with Texas) has an outsized effect on textbook content. California’s standards necessarily trickle into
other states. Bianchini & Kelly found that “California represents a major percentage of the US textbook market and is disproportionately influential in

20
defining the curricular content of texts.” Challenges
to Standards-Based Reform at 380 (footnote omitted). Stein, Stuen, Carmine, and Long have also
noted that based on the size of the California and
Texas markets, textbook publishers have been
known to “design their instructional programs to
align with the curriculum objectives or standards
identified in those states.” Textbook Evaluation and
Adoption at 7. Finally, Jobrack traced the standard
evolution of an elementary and secondary textbook,
noting that publishers strategize based on state
adoption schedules. TYRANNY OF THE TEXTBOOK, at
13. First, they will schedule a new edition to coincide with Texas’s adoption schedule. The year after,
they will “Californiaorize” the text and submit it to
California. They will then roll it out nationwide.
“[E]ach state may have a state-specific cover and
other elements, but the program is basically the
same as that created for Texas or California. Publishers cannot afford to create individual programs
for each state.” Id.
As a result, any state which adopts its history
and social science textbooks after California will
likely receive editions which contain the discriminatory and false information about Hinduism. When
educating our children, California has its thumb
firmly on the scale. That makes this case more than
just a California problem and justifies this Court’s
intervention.

21

CONCLUSION
For these reasons, amici respectfully request the
Court grant the petition for certiorari.
Respectfully submitted,
ALAN MYGATT-TAUBER
Counsel of Record
LAW OFFICE OF ALAN
MYGATT-TAUBER
10089 Ashley Circle NW
Silverdale, WA 98383
(202) 236-9734
alan@amtappeals.com

March 2021

1a
Appendix – List of Amici
Hindu Temples and Hindu Religious Educational Institutions
Shree Shakti Mandir of Atlanta is a Hindu temple in Atlanta, Georgia, founded in 1990. Over
1,000,000 Hindu devotees from across the globe have
visited the Temple.
Chinmaya Mission West is a nonprofit worldwide
organization with centers in most major cities in India and 45 centers devoted to spiritual and cultural
teaching in the United States. They currently offer
educational programs to over 20,000 children across
the United States.
Sri Ramanuja Thondarkulam of Allen, Texas, is
a non-profit organization dedicated to promoting
Hindu religious education through the support of
schools of scriptural learning.
The International Society for Krishna Consciousness (ISKCON). The International Society for
Krishna Consciousness (ISKCON) is a global Vaishnava Hindu organization with fifty affiliated temples
in the United States. ISKCON is a strong advocate
of religious freedom and regularly submits amicus
briefs to defend the rights of Hindus and others in
US Courts.

2a
Sringeri Vidya Bharati Foundation (SVBF) is an
extension of the 2,500 year old Sri Sharada Peetham
at Sringeri, India, which is the world’s oldest continuously functioning religious institution in existence
today. SVBF has four branches in the United
States.
Sri Venkateswara Temple, located in Pittsburgh,
PA is the oldest Hindu place of worship in the United States. It has devotees in all fifty states as well
as Canada and serves nearly 40,000 devotees a year.
The Hindu Association of Northwest Arkansas,
(HANWA), located in Bentonville, AR, runs a temple
and serves over 5,000 members from Northwest Arkansas and parts of Missouri, Texas, and Oklahoma.
The Hindu Society of Minnesota, is one of the
largest temples in North America, serves approximately 15,000 members in Minnesota, western Wisconsin, northern Iowa, and portions of North and
South Dakota and provides religious, spiritual, educational, social and cultural activities for the Hindu
community.
Sri Satyanarayana Swamy Devasthanam Vedic
Education and Devotional Academy (VEDA) in
Milpitas, California, one of the largest temples in
Silicon Valley;
South Florida Hindu Temple located in Southwest Ranches, FL, offers education and religious
services to Miami’s Hindu population.

3a

The Murugan Temple of North America, is the
first Tamil Murugan temple in North America. It
serves over 10,000 members nationwide.
The Durga Temple of Virginia, located in Fairfax
Station, Virginia serves around 10,000 Hindus in the
Capitol region.
Sanatan Shiv Shakti Mandir, located in Houston,
Texas, serves 50,000 devotees a year.
The Hindu Temple Society of North America,
located in Flushing, New York, serves over 50,000
devotees every year.
India Cultural Center and Temple, located in
Eads, Tennessee, serves 10,000 Hindu families in
the Midsouth region.
Saiva Siddhanta Church, located in Kapaa, Hawaii, serves Hindu families in the State of Hawaii
and publishes HINDUISM TODAY magazine.
The Hindu Society of Central Florida, located in
Casselberry, FL which serves approximately 3,000
devotees.
Arsha Vidya Pitham of Saylorsburg, PA, which
serves approximately 1,000 devotees.
Austin Hindu Temple & Community Center, located in Austin, TX, which serves approximately
10,000 devotees a year.

4a

Hindu Temple of St. Louis, located in St. Louis,
MO. The temple was firebombed in 2003 and as a
result is particularly interested in ensuring that only
correct information about Hinduism is taught in
public schools.
Sri Siva Vishnu Temple, located in Lanham, MD,
serves over 10,000 devotees in the DC, Maryland,
and Virginia area.
Sri Venkateswara Swamy Temple of Colorado,
located in Castle Rock, CO, serves approximately
7,000 devotees per year.
Jain Society of Tampa Bay, in Tampa Bay, FL,
serves between 300-400 devotees.
West Michigan Hindu Temple, in Ada, MI, serves
between 3,000 and 4,000 members annually.
Greater Atlanta Vedic Temple Society, Inc., in
Atlanta, GA, serves 5,000 devotees per year.
Hindu Temple and Culture Society of the USA,
Inc., in Bridgewater, NJ, runs the Sri Venkateswara
Temple (Balaji Mandir), one of the most visited temples serving residents in NJ, NY, CT, and PA.
Gayatri Chetna Center, in Piscataway, NJ, serves
thousands of community members in NJ and the tristate area.

5a
Hindu Cultural Center of Tennessee, in Nashville, TN, serves more than 10,000 devotees in Tennessee and surrounding states at the Sri Ganesha
Temple.
Sanatan Dharma Temple and Cultural Center,
in Kent, WA, which serves 1,200 members throughout the year.
Shri Navagraha Devasthanam of North America, Inc., in Hyde Park, NY, which runs Sarvamangala Shri Saneeswara Temple, the first Hindu Temple outside of India dedicated to the Lord Shani Dev,
the God of Justice and Celestial Planets God of the
Vedic Pantheon, which serves over 11,000 members.
India Cultural Association, of Grayslake, IL, runs
a Hindu temple known as the Hindu Mandir of Lake
County.
Hindu Temple of North Texas, in Plano, TX, runs
the Sri Ganesha Temple and serves more than
25,000 families in the North Texas region.
Hindu Temple of Kentucky, Inc., located in Louisville, KY, serves approximately 5,000 individuals.
Bharatiya Temple and Cultural Center, located
in Lexington, KY.

6a
Arya Pratinidhi Sabha America, the Congress of
Arya Samajs in North America, located in Detroit,
MI and serves over 10,000 devotees a year. Arya
Samaj is a Hindu religious group that is active in
multiple countries.
Sri Venkateswara Temple of North Carolina,
located in Cary, NC performs and upholds Hindu religious activities as defined in Vedas and Upanishads, provide humanitarian and compassionate
services to the entire community in the region
through cross-cultural activities, provides facilities
to members of the Hindu community for celebration
of festivals and other religious ceremonies, and promotes Hindu religion and its distinct philosophy.
Hindu Temple of Central Indiana, located in Indianapolis, IN, serves approximately 7,000 members
in central Indiana.
Sree Venkateswara Temple of Cleveland, in
Richfield, OH, serves approximately 9,000 devotees
annually.
Hindu Temple of Greater Springfield, in Springfield, IL, serves approximately 2,000 devotees annually.
Sri Meenakshi Temple Society of Houston, located in Houston, TX, serves 30,000 devotees annually.
Hindu Center of Atlanta, in Cumming, GA, serves
10,000 devotees annually.

7a
SV Lotus Temple, in Fairfax, VA, serves 15,000
devotees annually.
Siddhi Vinayak Mandir, located in Atlanta, GA.
Greater Baltimore Hindu-Jain Temple, in Baltimore, MD which serves 1,500 devotees each year.
School Teachers and School Board Members
Dr. Gayathri Lakshmipathy is a teacher in the
Fremont Unified School District in California. She
is among a pool of teachers who may be assigned to
teach History-Social Science to sixth grade students,
and has taught the subject since adoption of the
2016 Framework at issue. She holds a Ph.D. in public administration.

8a
Lakshmi Aradhya is a middle school teacher in
Davis, California. She has taught History-Social
Science for many years in numerous schools in Davis, including sixth and seventh grades.
Christopher Clark is a Board Member and former
President of the Folsom Cordova Unified School District in Folsom, CA, which includes 24 schools. He
has an interest in ensuring that California instructional materials do not violate the Free Exercise
Clause, as school districts are often at the forefront
of litigation.
Heera Kulkarni, founder and Director of the VI-SH
Koranne Foundation, a 501(c)(3) corporation dedicated to educate, encourage, and empower youth by
working to bridge the gaps between Hindu and nonHindu cultures; she is also a retired fifth grade
teacher in the Elk Grove Unified School District, in
Elk Grove, CA.

